        TESTIMONY OF DONALD A. GAMBATESA, INSPECTOR GENERAL
             U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT



   SUBMITTED TO THE APPROPRIATIONS SUBCOMMITTEE ON STATE, FOREIGN
                 OPERATIONS, AND RELATED PROGRAMS
                   U.S. HOUSE OF REPRESENTATIVES



               OVERSIGHT OF ASSISTANCE PROGRAMS IN IRAQ
                                  BY
                 USAID’S OFFICE OF INSPECTOR GENERAL



                            FEBRUARY 8, 2007



     Madame Chairwoman, members of the Committee, it is an honor to

appear before you today. I welcome the opportunity to testify on behalf of

the Office of Inspector General (OIG) for the U.S. Agency for International

Development (USAID) to describe OIG’s operations in Iraq and its

contributions to USAID’s reconstruction and development efforts.



     By way of background, OIG staff conducts performance audits and

contracts with the Defense Contract Audit Agency (DCAA) to conduct

financial audits of USAID activities implemented by U.S. contractors.

DCAA’s reports are reviewed by OIG, which then develops and transmits
recommendations to USAID for corrective action.             OIG also conducts

criminal, civil, and administrative investigations and provides fraud

awareness training to USAID staff and the staff of entities hired to

implement its programs. This training helps people recognize indications of

fraud and provides direction on what to do if they observe suspicious or

illegal behavior.



      OIG began performing oversight of USAID’s Iraq Reconstruction

Program in early 2003.          At that time, our headquarters staff began

reviewing the agency’s procedures for awarding reconstruction contracts to

ensure compliance with federal acquisition regulations. OIG conducted 12

compliance reviews between April 2003 and April 2004. Those reviews

found that USAID generally complied with federal regulations in the

awarding of contracts using other than full and open competition and that

the contracts, valued at about $1.5 billion, were valid and legal. However,

several recommendations were made to strengthen the contracting

process.



      Auditors      and   investigators   began   participating   in   continuous

temporary-duty assignments to Iraq in August 2003 until a permanent



                                          -2-
regional field office was established in July 2004. In addition to auditing

USAID’s contract award process, OIG worked in areas such as local

governance, electrical power, and economic reform.



      Currently, eight auditors and one investigator perform oversight of the

$5.4 billion obligated by USAID to date.       OIG will be assigning one

additional investigator to its Baghdad office in March to participate in the

recently established International Contract and Corruption Task Force

(ICCTF). Investigators of the Federal Bureau of Investigation, the Defense

Criminal Investigative Service, the U.S. Army Criminal Investigative

Division, the Department of State OIG, and the Special Inspector General

for Iraq Reconstruction (SIGIR) staff this task force.    Its purpose is to

investigate and prosecute cases of contract fraud and public corruption

related to Iraq reconstruction.



      To ensure the effective use of limited resources and to prevent

duplication of effort, OIG coordinates closely with SIGIR and other

government organizations that are conducting audits and investigations in

Iraq. At the headquarters level, OIG attends SIGIR’s quarterly meetings




                                     -3-
during which completed, ongoing, and planned audits, as well as

investigative issues of mutual interest, are discussed.



      In Iraq, OIG staff has a close working relationship with SIGIR that

often involves daily communication, as well as participation in quarterly

meetings of the Iraq Accountability Working Group. This group was formed

in Baghdad to coordinate audits, share information among U.S.

government audit staff, and minimize audit disruption to clients.         Our

investigator attends ICCTF meetings and works directly on cases with

investigators from other agencies.



      To oversee USAID’s activities in Iraq, Congress has appropriated

$7.9 million to OIG in three supplemental appropriations: $3.5 million in

fiscal year (FY) 2003, $1.9 million in FY 2004, and $2.5 million in FY 2005.

Our Iraq operations for FY 2006 were funded from FY 2005 carryover funds

and FY 2006 appropriations.



      The FY 2007 President’s Budget for USAID OIG is $38 million, which

includes $2.5 million for funding our audit and investigative efforts in Iraq.




                                      -4-
OIG anticipates operating under a full-year continuing resolution for FY

2007.



        As of February 5, 2007, OIG had issued 33 performance audits and

reviews of USAID activities in Iraq. The audits and reviews covered much

of USAID’s $5.4 billion Iraq program and followed the agency’s efforts as

they moved from reconstruction into development.             Highlights of some

performance audits include the following:



        •    USAID’s agriculture program sought to increase production

             levels and incomes significantly and to strengthen the private

             sector in crop production, livestock, high-value agriculture, soil

             and   water    resource   management,         government-to-market

             transition, and marshland rehabilitation. An audit completed in

             January of this year selected 29 agricultural activities for review

             and found that 16 (55 percent) achieved their intended outputs,

             12 (41 percent) were on schedule for doing so, and one was

             not likely to achieve its intended outputs.




                                        -5-
•   The Support to Iraqi Basic Education Program works closely

    with the Ministry of Education and local Directors General of

    Education throughout Iraq.      The program seeks to build the

    capacity and increase the quality of the country’s educational

    system. A 2005 audit looked at the basic education activities to

    determine if they had progressed toward their 82 intended

    outputs. The audit found that basic education activities had

    progressed toward 33 (40 percent) of the planned 82 outputs.

    Work had not started on 22 (27 percent) and the remaining 27

    (33 percent) were deleted from the plan because of lack of

    funding, which resulted from security costs almost doubling and

    the Iraq Reconstruction Management Office reprogramming

    some of the funds originally planned for this project.



    -     The audit noted that the Ministry of Education did not

          have appropriate computer equipment for operating an

          educational management information system.          As a

          result, OIG recommended that USAID develop a plan for

          ensuring that the Ministry of Education receives the

          computer equipment required to operate the education



                              -6-
    management       information   system   being   developed.

    USAID addressed the recommendation by identifying the

    needed hardware and developing an implementation

    plan.



-   A 2007 follow-up audit found that the actions taken to

    address the recommendation from the 2005 audit were

    not satisfactory. The computer equipment had not been

    installed and the education management information

    system was not operational. Additionally, the audit found

    that 7 out of 16 selected outputs (44 percent) were

    achieved. The status of 2 outputs (12 percent) could not

    be determined because of the lack of supporting

    documentation.     The remaining 7 intended outputs (44

    percent) were not achieved.     OIG again recommended

    that the Mission coordinate with its implementing partner

    to ensure that the servers are installed and the education

    management information system is operational.




                        -7-
•   During its first year, USAID’s local governance program

    focused on restoring basic services, developing transparent

    and accountable local governments, and strengthening civil

    society organizations. During the second year, the program

    focused on facilitating Iraq’s transition to a sovereign state. In

    an audit report issued in 2006, OIG noted that it could not

    determine if the local governance activities achieved their

    intended outputs, because USAID did not require the contractor

    to submit all reporting and monitoring documents specified in

    the contract. Furthermore, USAID did not properly approve all

    rapid-response     grants,     prepare   contractor   performance-

    evaluations, or review payment vouchers submitted by the

    contractor. The audit made five recommendations to address

    these problems.       OIG has two on-going audits in local

    governance and community activities, and another one is

    planned for later this year.


•   An audit of the electrical power sector conducted in 2005 found

    that 7 of 22 power sector projects (32 percent) were not

    achieving intended outputs.        For example, a $381 million

    project for developing a new power-generating facility using

                                 -8-
    natural gas was cancelled and funds were reprogrammed into

    other areas. Several other projects were delayed because of

    deteriorating   security   and    a     lack   of   host     government

    cooperation.



    -     OIG recommended that steps be taken to ensure that the

          newly refurbished infrastructure will be operated and

          maintained properly after being turned over to the Iraqis.

          Our FY 2007 annual plan includes an audit of the

          sustainability of the Iraqi power sector.



•   An   audit   conducted     in    2005    of    water   and    sanitation

    rehabilitation activities found that 30 of 34 water and sanitation

    projects, or 88 percent, were achieving intended outputs. For

    example, the Sweet Water Canal project in Basra improved the

    quality of water being delivered to about 1.8 million Iraqis.

    However, four projects were not achieving intended outputs

    because they were hampered by security concerns and a lack

    of cooperation from the local government, which would not

    provide safe access to some locations.



                               -9-
           -     OIG also found barriers to capacity building on the water

                 and sanitation projects, including a lack of skilled local

                 personnel. USAID took steps to address these problems

                 with additional operation and maintenance support and

                 training, so OIG did not make any recommendations. Our

                 FY    2007    annual    plan   includes   an      audit   of   the

                 sustainability   of    water   and   sanitation    rehabilitation

                 activities.



     To summarize, OIG made 55 recommendations in connection with

the 33 performance audits and reviews issued as of February 5, 2007.

USAID has taken final action on all but four, and has made management

decisions to address those that remain.



     Several themes have surfaced from OIG’s performance audit work in

Iraq: (1) USAID generally complied with the Federal Acquisition Regulation

in authorizing the expedited award of contracts using other than full and

open competition; (2) Security has affected the implementation of many

projects from a cost and safety perspective; (3) Reprogramming of funds



                                       - 10 -
has affected the accomplishment of planned outputs; and (4) USAID or its

implementing partners did not always maintain documentation either to

support claimed achievements or to reflect adequate monitoring.



     As of January 31, 2007, OIG had issued 87 financial audits

completed by DCAA.        The audits covered approximately $1.5 billion in

USAID funds and found more than $57 million in questioned costs, of which

$20 million was determined by USAID to be unallowable.



     Security conditions inside Iraq have prevented OIG from conducting

as many site visits as it would like. Travel outside the International Zone

requires considerable planning and coordination with the Department of

State’s Regional Security Office and the assignment of armed security

details for protection.   Traveling by helicopter, fixed-wing aircraft, and

armored vehicle, OIG auditors made 11 site visits outside the International

Zone in FY 2006.



     Currently, OIG is conducting audits of Iraq programs involving local

governance, provincial reconstruction teams, and telecommunication. Our




                                     - 11 -
FY 2007 audit plan includes work in areas such as economic governance,

local governance, and infrastructure.



     As of January 31, 2007, OIG had closed 26 investigations involving

Iraq activities and had 13 cases pending. Completed investigations have

resulted in two terminations, one resignation, a credit of approximately $4.6

million, and refunds of approximately $390,000.          Four cases are being

reviewed by the Department of Justice for potential prosecution.



     The $4.6 million credit was for equipment supplied to USAID for

infrastructure programs. The investigation determined that the equipment

did not meet contract specifications. Another contractor was required to

refund $388,262 after an investigation revealed that equipment purchased

with USAID funds was not used to fulfill the contract.



     To date, OIG has conducted 11 fraud-awareness training sessions for

250 participants associated with USAID’s programs in Iraq.




                                     - 12 -
     Madame Chairwoman, thank you for offering me this opportunity to

discuss USAID OIG’s role in the reconstruction of Iraq with your committee.

I am willing to answer any questions the Committee may have. Thank you.




                                    - 13 -
